No. 19-511

 

IN THE
Supreme Court of the Anited States

FACEBOOK, INC.,

Petitioner,
Vv.

NOAH DUGUID, INDIVIDUALLY AND ON BEHALF OF
HIMSELF AND ALL OTHERS SIMILARLY SITUATED,

Respondent,
and
UNITED STATES OF AMERICA,

Respondent-Intervenor.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

BRIEF OF AMICUS CURIAE
CREDIT UNION NATIONAL ASSOCIATION, INC.
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,499 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 20, 2019.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
